Before the Committee on Appropriations
Subcommittee on Transportation, Housing and
Urban Development, and Related Agencies
United States Senate


For Release on Delivery
Expected at               American Recovery and
                          Reinvestment Act:
9:15 a.m. EDT
Thursday
April 30, 2009
CC-2009-062
                          DOT’s Implementation
                          Challenges and the OIG’s
                          Strategy for Continued
                          Oversight of Funds and
                          Programs


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Murray and Ranking Member Bond:

Thank you for the opportunity to testify today on the challenges facing the
Department of Transportation’s (DOT) implementation of the American Recovery
and Reinvestment Act (ARRA) of 2009 1 and our office’s related audit and
investigative initiatives. We appreciate the $20 million in additional funding that the
Committee provided to our office to conduct audits and investigations of DOT
projects and activities funded by ARRA. This additional funding will go a long way
in ensuring that we have the staff, travel budget, information technology, and other
resources that we need to help achieve new, ARRA-related goals, meet our increased
workload and protect the Federal investment over the long term. Since the passage of
ARRA, we have been working with DOT officials to support and oversee their efforts
and have assembled a cross-modal team of auditors, analysts, investigators, and
attorneys to review DOT’s management of recovery program funds.

ARRA designates an unprecedented $48 billion for DOT programs, adding new
challenges on top of the longstanding ones we have highlighted in past reports to the
Secretary of Transportation and Congress. These include overseeing numerous
grantees and projects across the country as the recovery funding is infused into the
economy. In addition to significantly increasing funding for certain DOT programs,
ARRA directs DOT to create several new programs and establishes tight timeframes
for distributing and expending funds and reporting results, such as the number of jobs
created. The Office of Management and Budget (OMB) also mandated additional
requirements, including weekly financial reports, which will test DOT’s capacity as it
strives to effectively implement these changes.

Both the President and Congress have emphasized the need for accountability,
efficiency, and transparency in the allocation and expenditure of ARRA funds and
have recognized the role of Inspectors General and the Government Accountability
Office (GAO) in accomplishing these objectives. For example, ARRA created the
Recovery Accountability and Transparency Board, consisting of our office and nine
other Inspectors General, and added substantial funding to help address the increased
workload. We want to acknowledge this Committee’s strong interest in vigilant
oversight of the recovery program, with this hearing as just one of the many indicators
of that support.

We realize the enormity of the challenges facing DOT and note the commitment of
the Secretary of Transportation and his staff to the success of DOT’s recovery
initiatives. DOT’s leadership has been proactive on several fronts. For example, the
Department has established the DOT-wide Transportation Investment Generating
Economic Recovery (TIGER) team to coordinate DOT’s role in the recovery
program, ensure accountability, and develop a risk management and financial

1
    Pub. L. No. 111-5 (2009).


                                                                                     1
reporting plan. In addition, DOT officials are working with grantees so they can
quickly submit proposals that will meet Federal requirements. DOT is also evaluating
how to redeploy current agency employees or use “rehired annuitants” to meet the
increased workload and conducting outreach to field staff and grantees through
frequently-asked-questions and guidance posted on DOT’s recovery internet sites.
Sustained leadership will be a prerequisite for continuing to meet the numerous issues
facing DOT.

Our statement today focuses on the specific challenges DOT faces as it implements
ARRA and our strategy to promote effective and efficient use of funds. Specifically:

    • DOT must continue to address the significant oversight challenges posed by
      ARRA. Last month, we reported on the major challenges facing DOT in ensuring
      that ARRA funds are spent properly and identified actions DOT should take now
      to support ARRA requirements (see attachment for the full report). 2 This report
      was based on a comprehensive review of our prior reports and other relevant work.
      Based on our analysis, we concluded that DOT must exhibit sustained and
      effective actions to oversee grantees receiving ARRA funding; implement
      significant new reporting requirements and programs mandated by ARRA; and
      prevent fraud, waste, and abuse. Actions needed to address these challenges
      include acquiring sufficient staff with relevant expertise to oversee grantees;
      developing comprehensive plans and sound criteria for the more than $9 billion in
      new programs created by ARRA; and enhancing understanding among DOT staff,
      grantees, and their contractors on how to recognize, prevent, and report potential
      fraud to the appropriate authorities.

      In addition to serving as “one-stop shopping” for actions DOT must take now to
      achieve ARRA-related goals, our report set out a roadmap for our future audit and
      investigative initiatives. In response to our recommendation to develop a plan to
      address the issues in our report, DOT committed to providing us with a document
      by April 30, 2009, that will outline its specific actions taken or planned.

    • Our audit and investigative initiatives must continue to examine areas that
      present the greatest risks and promptly notify DOT and Congress of actions
      needed to minimize fraud, waste, and abuse and achieve ARRA goals. We
      have begun working aggressively to position our office to handle the increased
      workload. In anticipation of ARRA’s passage, we initiated a three-phase approach
      to conducting related work. We completed Phase 1 last month with the issuance
      of our report on key oversight challenges facing DOT. We also identified several
      audits that, although started prior to ARRA’s passage, have a direct connection to

2
    OIG Report Number MH-2009-046, “American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing
    the Department of Transportation,” March 31, 2009. OIG reports and testimonies are available on our website:
    www.oig.dot.gov.


                                                                                                              2
   the programs funded under ARRA and related requirements. We plan to fast-track
   the most time-sensitive results of our work on these audits to ensure we provide
   DOT, Congress, and taxpayers with timely and relevant information.

   Phase 2 of our strategy is underway and involves a systematic scan, or structured
   survey, of the DOT agencies that received funding in ARRA, based on 10 focus
   areas identified in our report. These scans will examine vulnerabilities in program
   management and planning that could impede DOT’s ability to provide effective
   oversight of ARRA-funded projects and meet new statutory and OMB
   requirements. We plan to begin reporting the results of Phase 2 this summer
   through a series of ARRA advisories to the Department. Phase 3 is a long-term
   initiative in which we will drill down on high-risk areas that emerge as a result of
   our agency scans.

I will now discuss these issues in further detail.

DOT MUST CONTINUE TO ADDRESS THE SIGNIFICANT
OVERSIGHT CHALLENGES POSED BY ARRA
In anticipation of ARRA’s passage, we initiated a comprehensive review of our prior
audit and investigative work—as well as the relevant work of other accountability
organizations—to identify the major challenges facing DOT as it implements such a
large infusion of new funding and program requirements. We reported the results of
our review last month: American Recovery and Reinvestment Act of 2009: Oversight
Challenges Facing the Department of Transportation. Our report linked the
challenges identified to 10 specific focus areas where DOT must exhibit sustained and
effective actions and oversight; these areas are shown in table 1 on the next page.
(The full report is presented as an attachment to this statement.)

Based on our analysis of past findings, we see three major ARRA oversight
challenges facing DOT:

 • Ensuring that DOT’s grantees properly spend ARRA funds;

 • Implementing new accountability requirements and programs mandated by ARRA
   in an effective manner; and

 • Combating fraud, waste, and abuse.

To ensure sufficient consideration of the potential risks discussed in this report, we
also recommended that the Secretary of Transportation, through the DOT TIGER
team, develop an oversight implementation plan that outlines the key actions DOT has
underway or will take to address these issues. DOT agreed to provide us with a
document by April 30, 2009, outlining actions taken or planned in these areas.


                                                                                     3
   Table 1. Major ARRA Challenges and Related Focus Areas for DOT
 Ensuring that DOT’s grantees properly         1. Acquire sufficient personnel with
 spend ARRA funds                                 relevant expertise to oversee grantees.
                                               2. Adhere to existing Federal requirements
                                                  for programs funded under ARRA.
                                               3. Evaluate the credibility and
                                                  completeness of cost and schedule
                                                  estimates.
                                               4. Oversee grantees’ contracting
                                                  management activities and ensure
                                                  selection of appropriate contract types.
                                               5. Address internal control weaknesses and
                                                  identify unused funds for use on other
                                                  eligible projects.
 Implementing new accountability               6. Implement new ARRA tracking and
 requirements and programs mandated by            reporting requirements that are designed
 ARRA in an effective manner                      to promote accountability and
                                                  transparency.
                                               7. Develop comprehensive plans and
                                                  sound criteria for the new discretionary
                                                  grant and passenger rail programs within
                                                  statutory deadlines.
                                               8. Develop appropriate oversight strategies
                                                  for the new discretionary grant and
                                                  passenger rail programs.
 Combating fraud, waste, and abuse             9. Enhance understanding among DOT
                                                  staff, grantees, and their contractors on
                                                  how to recognize, prevent, and report
                                                  potential fraud to the appropriate
                                                  authorities.
                                               10. Take timely and effective action to
                                                   suspend or debar individuals or firms
                                                   that have defrauded the Department so
                                                   they do not receive future Federal
                                                   contracts.

Today, I will highlight a few of the key areas where action is needed.

Ensuring That DOT’s Grantees Properly Spend ARRA Funds
The large amounts of funding that DOT is responsible for under ARRA and the
accelerated timeframes to use those funds will place great demands on DOT’s
workforce, oversight processes, and financial management systems. Some of the
more significant challenges relate to ensuring that DOT’s Operating Administrations


                                                                                              4
oversee grantees’ contract management activities; addressing internal weaknesses that
could lead to ineffective use of ARRA dollars; and having sufficient staff with
relevant expertise to monitor grantees’ planning and execution of ARRA-funded
projects. We are encouraged by Secretary LaHood’s statement that DOT is
committed to do things “by the book,” follow established policies and procedures, and
employ sound business practices.

Overseeing Grantees’ Contracting Management Activities and Ensuring
Selection of Appropriate Contract Types
Oversight of grantees’ contracting management practices warrants particular attention
as the ARRA program is quickly rolled out. Actions needed are (1) specifying
contract requirements early; (2) maximizing competition; (3) using appropriate
contract types; and (4) preventing unallowable costs, improper payments, and
excessive overhead charges during contract execution. The magnitude and the
accelerated pace for spending ARRA dollars could exacerbate contract award
problems we previously identified, which include inappropriate contract types,
inadequate competition, and failure to ensure contract prices are fair and reasonable.

Our basis for these concerns resides in several examples. Specifically, audits of DOT
and state contracts used to respond to the Hurricane Katrina emergency found
instances in which DOT money was spent inefficiently. This occurred because
grantees used risky contracting methods in spending Federal funds, such as sole-
sourced contracts, which resulted in significantly higher costs. 3 For example, we
found that a state department of transportation awarded two sole-source contracts
without assurance of fair and reasonable prices, which resulted in the state paying
about $1.7 million more than necessary for bridge repairs. Our review of controls
over DOT’s contract for Hurricane Katrina emergency disaster relief transportation,
also found that a Federal Aviation Administration (FAA) contracting officer routinely
authorized invoices for payment without any documentation from the contractor
showing that the services had actually been provided.4 In one instance, this lack of
controls resulted in a $33 million overpayment to the contractor for emergency bus
transportation and chartered aircraft services; the overpayment was later recovered.

Addressing Internal Control Weaknesses and Identifying Unused Funds for
Other Eligible Projects
DOT needs to assess risks and identify and mitigate any internal control5 weaknesses
to ensure that ARRA funding is spent effectively in accordance with Federal

3
    OIG Report Number MH-2006-065, “Audit of the Mississippi Department of Transportation’s Award of Selected
    Hurricane Katrina Emergency Repair Contracts,” September 6, 2006.
4
    OIG Report Number AV-2006-032, “Internal Controls Over the Emergency Disaster Relief Transportation Services
    Contract,” January 20, 2006.
5
    Internal controls provide reasonable assurance of the effectiveness and efficiency of an agency’s use of financial
    resources, the reliability of financial reporting, and compliance with applicable laws and regulations.


                                                                                                                    5
regulations and OMB’s new requirements. Specifically, OMB is requiring that
agencies ensure the prompt award and outlay of ARRA dollars and minimize
improper payments. Going forward, DOT must ensure that its risk mitigation plans
prevent new and recurrent internal control weaknesses, identify unused funds
promptly, ensure timely action to free up unused funds for use on other projects, and
detect and prevent improper payments. Our prior and ongoing audit work shows that
DOT has experienced problems in these areas.

In particular, we have found that DOT must improve its controls for identifying
unused funds in its financial management systems and take appropriate action to
release them on completed, cancelled, and reduced-scope projects. For example, in
fiscal year (FY) 2008, auditors found idle funds at the Federal Highway
Administration (FHWA) estimated at about $300 million. Similarly, we found that in
2007 FAA allowed numerous Airport Improvement Program grants to remain inactive
and obligations to remain on closed grants, both for excessive periods of time. 6
Without sufficient controls going forward, any unused ARRA funds could remain idle
for long periods of time. This in turn could prevent other worthy projects from
receiving Federal funds and potentially undermine ARRA’s ability to stimulate the
U.S. economy by quickly spurring construction activity across the country.

Avoiding improper payments also presents a continuing challenge to DOT. For
example, our prior work at FHWA identified oversight weaknesses that led to such
payments, which DOT must avoid in the ARRA program. Specifically, we examined
FHWA’s oversight of design and engineering (D&E) firms’ indirect costs claimed on
Federal–aid grants and found that Federal funds were used to reimburse unallowable
costs totaling nearly $16 million.7 This occurred in part due to ineffective oversight
by FHWA and state transportation departments of the certified public accounting
firms hired by the D&E firms. As OMB stipulated in its implementation guidance,8 it
is critical to mitigate the risks of improper payments in the recovery program to
ensure that DOT maximizes the return on the Federal investment.

Acquiring Sufficient Personnel With Relevant Expertise To Oversee Grantees
DOT must ensure that it has sufficient personnel with relevant expertise to meet the
increased workload, new requirements, and accelerated timeframes associated with
recovery spending. A sufficient and trained workforce is critical to hold grantees
accountable for contract actions and realistic cost and schedule estimates and to
ensure that state or local recipients can effectively manage their projects and the risks
associated with the recovery program.

6
    OIG Report Number AV-2007-073, “FAA’s Oversight of Inactive Airport Improvement Program Grant Obligations,”
    September 13, 2007.
7
    OIG Report Number ZA-2009-033, “Oversight of Design and Engineering Firms’ Indirect Costs Claimed on Federal-Aid
    Grants,” February 5, 2009.
8
    OMB, “Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009,” April 3, 2009.


                                                                                                                  6
DOT officials expressed concerns about their ability to provide sufficient oversight
with limited time and staff, particularly in regional and division offices, and noted
actions under consideration. For instance, some Operating Administrations may
detail staff from each of their headquarters to their regional and division offices and
rehire retired Federal employees on a temporary basis. These efforts were supported
when the Office of Personnel Management granted DOT direct-hire authority and
delegated to it dual compensation waiver authority. These hiring flexibilities should
help enable DOT to meet critical hiring needs. The key will be to utilize these
flexibilities effectively to augment other staffing actions. We plan to evaluate the
adequacy of DOT’s workforce as part of our future audits on DOT’s oversight of
ARRA projects.

Implementing New Reporting Requirements and Programs Mandated by
ARRA in an Effective Manner
In addition to increasing the funding levels of existing programs, ARRA presents new
goals for DOT. First, ARRA mandates several new reporting requirements that are
designed to promote accountability and transparency, which OMB enhanced in its
recent implementation guidance. Second, ARRA creates two new, large programs
that provide $1.5 billion in supplementary discretionary grants to improve the
Nation’s transportation infrastructure and $8 billion in grants for high-speed rail
corridors and intercity passenger rail service. 9 These programs are being designed
from the ground up and, therefore, pose particular vulnerabilities for DOT.

Implementing New ARRA Tracking and Reporting Requirements Designed To
Promote Accountability and Transparency
To meet ARRA accountability and transparency requirements, DOT must ensure that
its financial management systems can track ARRA spending and produce reliable
information to report results in a meaningful way. Specifically, DOT must ensure that
its financial management systems can clearly and reliably track recovery funds
separately from other program funds, as required by OMB. This will be important as
OMB’s guidance requires agencies to submit regular reports, and the information to
generate these reports will come largely from DOT’s financial management systems.

For example, OMB’s final implementation guidance requires DOT to provide weekly
Financial and Activity Reports that provide, by Treasury Account, total obligations
and total outlays as recorded in agency financial systems on a cumulative basis.
These reports will also provide a bulleted list of the major actions taken or planned.
In addition, DOT will need to develop processes for meeting OMB requirements to
report on the number of jobs created or preserved. Some ARRA information will be


9
    ARRA stipulates that the discretionary grant program can be used for a variety of projects, including highway, bridge,
    public transportation, passenger and freight rail, or port infrastructure projects.


                                                                                                                        7
available publicly on the Administration’s website, www.recovery.gov, 10 and
therefore must meet DOT and OMB data quality requirements. These requirements
underscore the need for DOT to adjust its financial management systems so that they
provide reliable and complete management reports that DOT staff can use to
effectively guide and oversee grantees.

In the past, DOT has experienced challenges in this area. For example, in September
2007 we testified that FHWA was unable to determine how much of the billions of
dollars in Highway Bridge Program funding were actually spent on structurally
deficient bridges, because its financial management system did not differentiate
between spending on structurally deficient bridges and other bridge-related
expenditures. 11 In this case, the absence of sufficient management-level information
inhibited FHWA’s ability to assess the impact of Federal dollars on bridge conditions.
We are working on a follow-up audit to assess FHWA’s bridge funding and oversight
activities in greater detail.

Developing Comprehensive Plans and Sound Criteria for the New
Discretionary Grant and Passenger Rail Programs Within Statutory Deadlines
Creating and executing the new programs called for by ARRA presents a huge
challenge for DOT. Meeting statutory deadlines will be difficult due to the number of
tasks that must be completed in short timeframes, including quickly producing
planning documentation and guidance. ARRA directs the Office of the Secretary of
Transportation (OST) to publish criteria for its grant program within 90 days of
ARRA enactment, accept applications for grants within 180 days after the criteria are
published, and announce all projects selected within 1 year of ARRA enactment.
Further, ARRA requires the Federal Railroad Administration (FRA) to produce a
strategic plan for the passenger rail program within 60 days of ARRA enactment and
interim implementation guidance to applicants within 120 days.

We have reviewed the strategic plan FRA released on April 16. We are cognizant that
FRA had a limited timeframe in which to prepare the plan and believe the plan
provides a meaningful, broad vision for the program and recognizes many of the risks
inherent in implementing this program. However, the plan lacks detailed strategies
for achieving its goals and performance measures to evaluate progress towards those
goals. The interim performance guidance will provide an additional near-term
opportunity for FRA to address these issues.

To meet deadlines for the discretionary grant program, the Secretary established a
working group within OST to develop criteria and determine the best administrative

10
     The Administration created this website to provide information to the public on the planning and implementation of
     ARRA.
11
     OIG Testimony Number CC-2007-095, “Federal Highway Administration’s Oversight of Structurally Deficient Bridges,”
     September 5, 2007.


                                                                                                                     8
structure. OST also has an advisory task force comprised of staff from the Operating
Administrations. According to DOT officials, a central issue for the task force is
determining the most appropriate place to administer the grants—within OST or the
Operating Administration that would normally be responsible for a particular type of
project. For example, if OST delegates administrative responsibility for a bridge
replacement project to FHWA, it would need to monitor how this delegation of
authority is effectively achieving the established goals and requirements of ARRA.

FRA also faces daunting challenges because it has not previously implemented a
program like the large-scale, high-speed passenger rail program called for in ARRA.
FRA has begun establishing specific plans for this program. These include
determining how to allocate the funds among the eligible purposes 12 and developing
program guidance within the statutory timeframes. Because FRA is a small agency
that had few grant programs before ARRA was passed, it is critical for FRA staff to
leverage the in-house expertise throughout DOT and determine what additional
resources it may need. To design and implement this program, FRA must, for
example, establish sufficient controls to ensure that Federal investments do not simply
supplant investments the freight railroads already planned to undertake on their rail
lines.

Combating Fraud, Waste, and Abuse
DOT needs to tailor its counter-fraud efforts to adapt to the increase in capital funding
associated with the recovery program and the expected surge in construction activity
throughout the country. OMB’s guidance for ARRA implementation directs Federal
agencies to be aggressive in preventing fraud, waste, and abuse. This requires
sustained action in two key areas, discussed below.

Enhancing Understanding Among DOT Staff, Grantees, and Their Contractors
on How To Recognize, Prevent, and Report Potential Fraud
DOT must target its outreach efforts at deterring fraud schemes that we have seen
with past DOT projects and must be avoided with projects receiving funding under
ARRA. These include false claims for materials and labor, bribes related to contracts
for materials or labor, and product substitution.13 An important way to deter fraud is
for DOT staff and grantees to be aware of certain “red flag” indicators typically
associated with fraud schemes. For example, a contractor regularly taking or labeling
quality control samples away from inspector oversight or insisting on transporting
these samples from the construction site to a lab might indicate quality control testing
fraud.


12
     According to FRA, the $8 billion can be used for three programs: (1) high-speed corridor program, (2) intercity passenger
     rail service grants, and (3) congestion grants.
13
     Our March 2009 report, which is attached to this statement, contains a list of common fraud schemes and fraud indicators.


                                                                                                                            9
One significant case we were involved with illustrates this type of fraud. In this case,
an Indiana contractor agreed to pay more than $8.2 million to settle Federal and state
claims alleging that a contractor fraudulently swapped samples of asphalt to inflate
the amount paid on road projects by FHWA, the Commonwealth of Kentucky, and the
State of Indiana. This joint investigation, conducted with FHWA and the U.S.
Attorney’s Office for the Western District of Kentucky, revealed that the contractor’s
employees fraudulently swapped “good” cores for “bad” cores (i.e., cores with failing
density).

The best way to make individuals aware of fraud schemes and their indicators is to
conduct systematic fraud prevention education.        DOT and the Operating
Administrations receiving ARRA funds will need to enhance their outreach efforts to
ensure recipients of Federal grants and contracts—and their contractors—have
meaningful ethics programs and sound internal controls to recognize, prevent, and
report fraud.

Taking Timely and Effective Action To Suspend or Debar Individuals and
Firms That Have Defrauded the Department
DOT will need to ensure timely and effective action is taken on suspension and
debarment cases against those individuals or firms that have defrauded the
Department. Federal regulations prohibit firms and individuals without satisfactory
records of integrity and business ethics from receiving Federal contracts. Our work
has shown that the Operating Administrations do not consistently take suspension and
debarment actions in a timely manner, even though the DOT Order requires that such
decisions be made within 45 days. 14 Taking action to address these deficiencies is
critical as DOT implements ARRA. We plan to issue the results of our ongoing audit
in the near future as part of our effort to fast-track the release of information that is
pertinent to the effective implementation of ARRA.

THE OFFICE OF INSPECTOR GENERAL WILL CONTINUE TO
EXAMINE AREAS THAT PRESENT THE GREATEST RISKS AND
PROMPTLY NOTIFY DOT AND CONGRESS OF ACTIONS NEEDED
TO MINIMIZE FRAUD, WASTE, AND ABUSE AND ACHIEVE ARRA
GOALS
Our office supports DOT in its oversight initiatives, and we have developed a risk-
based strategy in response to the new challenges presented by ARRA that will target
the highest risk areas and emphasize timely reporting of results. To that end, we will
evaluate DOT’s management of the ARRA programs and its oversight of grantees and
contractors receiving recovery funding. Our work is being coordinated with the

14
     DOT Order 4200.5D, “Governmentwide Debarment, Suspension, and Ineligibility,” June 7, 2005.


                                                                                                   10
Government Accountability Office to avoid duplication of effort and maximize
accountability coverage. In addition, we have a number of ongoing audits—
undertaken before passage of ARRA—that directly relate to the DOT programs that
received additional funding in ARRA. We have also begun several actions to enhance
our capacity to assist DOT in ensuring accountability; these include hiring new staff
to handle our increased audit and investigations workload.

The Office of Inspector General Is Using a Three-Phase Approach To
Emphasize High-Risk Areas and Promptly Report Results
In anticipation of ARRA’s passage, we initiated Phase 1 of our planned audit and
investigative strategy. This phase involved a comprehensive review of prior reports
and testimonies to identify major challenges facing DOT as it implements ARRA.
We analyzed this work and reported our results last month. As part of this effort, we
identified a number of ongoing audits and investigative activities that directly relate to
the challenges facing DOT under ARRA. For the most part, ARRA provided an
infusion of new money to existing DOT programs, such as FHWA’s Surface
Transportation Program, the Federal Transit Administration’s (FTA) Urbanized Area
Formula Grant and New Starts programs, and FAA’s Airport Improvement Program.
We were already conducting work on issues related to many of these programs before
the passage of ARRA. Any actions that DOT takes to improve these programs based
on our findings and recommendations may increase the likelihood that ARRA dollars
will be spent efficiently and effectively.

For example, our ongoing, follow-up audit of structurally deficient bridges indicates
that while FHWA could account for the overall amount of Highway Bridge Program
funding (in billions of dollars) apportioned to states for deficient bridges, its project-
based accounting system lacks sufficiently detailed data. Therefore, the system could
not evaluate whether the money was used to effectively improve the conditions of
deficient bridges, as required by statute and FHWA policy. As a result, FHWA could
not determine whether Highway Bridge Program funding improved the conditions of
deficient bridges nationwide.

We will place priority on issuing ARRA-related reports as quickly as we can within
compliance of generally accepted government auditing standards to provide timely
information to DOT and Congress. To bolster this effort, we will also issue interim
ARRA advisories to highlight key results of these audits that may warrant immediate
attention by DOT agencies.

Phase 2: Conducting Agency Scans To Identify Vulnerabilities in ARRA
Implementation
Currently, we are in Phase 2 of our strategy, which involves conducting structured
surveys, or scans, of each DOT agency’s implementation of ARRA. Our objective in
these agency scans is to evaluate vulnerabilities that could impede DOT’s ability to

                                                                                       11
(1) provide effective oversight to ARRA-funded projects and (2) meet new
requirements mandated by ARRA and OMB, including financial and job creation
reporting.

We will conduct a scan at each DOT office or Operating Administration that received
funding in ARRA: FHWA, FRA, FTA, OST, FAA, and the Maritime Administration
(MARAD). Table 2 below shows the agencies that received ARRA funds and the
amount allotted to each agency. In addition, once DOT provides us with its plan for
addressing the key challenges it faces under ARRA—in response to our March 2009
recommendation—we will assess the actions taken or planned as part of our agency
scans.

Each scan will be conducted using a standardized methodology, including questions
that probe what actions DOT has taken or planned to address the 10 focus areas we
reported. As with our ongoing, ARRA-related audits, we plan to expedite our
reporting to ensure that DOT, Congress, and taxpayers have real-time information
related to these scans. That is, if we identify any issues during the scans that warrant
immediate attention, we will issue a series of ARRA advisories to highlight those
issues. Earlier this week, we issued an announcement letter to formally initiate our
Phase 2 work.
                Table 2. Distribution of ARRA Funds Within DOT

                                           ARRA Funds
       DOT Component                        (millions)           Percent of Total*
  FHWA                                                 $27,500              57.15%
  FRA                                                   $9,300              19.33%
  FTA                                                   $8,400              17.46%
  OST                                                   $1,500               3.12%
  FAA                                                   $1,300               2.70%
  MARAD                                                  $100                0.21%
  OIG                                                      $20               0.04%
  Total                                                $48,120            100.00%
 Source: ARRA.
 *Percentages do not add up exactly due to rounding.

Phase 3: Examining High-Risk Areas
Phase 3 of our strategy involves using the results of our agency scans to identify areas
that warrant additional work and reporting based on potential risks. We will use this
information to develop a long-term plan outlining our ARRA audit and investigative
initiatives. In addition to our near-term phased approach, we remain committed to
protecting the Federal investment over the long term.



                                                                                     12
Other Investigative Initiatives
Our investigators have been proactive in their fraud deterrence efforts, recognizing
that risks of fraud will increase as the recovery funds are poured into the economy in
the coming months. To help mitigate these risks, we are:

     • conducting fraud awareness and prevention activities to alert DOT staff and
       grantees, including contractors, at all levels of government so they know how to
       recognize, prevent, and report suspected fraud. They must also know that
       fraudulent misrepresentation for personal or corporate gain is unacceptable under
       any circumstance. As part of this effort, our special agents facilitated fraud,
       waste, and abuse workshops for oversight officials within DOT’s Operating
       Administrations and state and local agencies receiving ARRA funds, and we will
       continue these efforts. In addition, the Secretary of Transportation and I hosted a
       webcast last month for DOT staff that focused on how to prevent fraud, waste, and
       abuse involving common fraud schemes. 15

     • distributing materials such as hotline posters and “red flag” fraud indicator cards
       to Federal, state, and local agencies to support their oversight efforts.

Our strategy also involves investigating allegations of fraud on DOT-funded projects.
We will be vigilant in presenting cases to the Department of Justice (DOJ) for
prosecution and participating in resulting prosecutions. We will also focus on
ensuring that DOT’s Operating Administrations and states take appropriate
suspension and debarment actions. For example, we have already met with various
DOJ personnel, including senior members of the National Procurement Fraud Task
Force and the Antitrust Division in Washington, D.C. We also met with Federal
Bureau of Investigation fraud and public corruption agents to discuss how we can best
leverage scarce investigative resources. Further, we are reaching out to our
investigative counterparts at the state and local levels.

The Office of Inspector General Is Taking Action To Best Position Itself
To Meet the Increased Workload Under ARRA
ARRA also presented our office with resource challenges. Even before ARRA’s
passage, we were already a small Inspector General office in relation to DOT’s large
budget. Accordingly, we intend to make the most of the $20 million in additional
funding that ARRA provided to our office. This additional funding will go a long
way in ensuring that we have the staff, travel budget, information technology, and
other resources that we need to help achieve new, ARRA-related goals.

I can assure you that we are maximizing the new funding and program flexibilities we
received in recent months. For instance, we are working aggressively to hire new

15
     This webcast can be viewed at: www.oig.dot.gov/recovery/.


                                                                                       13
auditors and investigators.     Our FY 2009 appropriation supports a base of
approximately 414 full-time equivalents (FTE), and we employed 397 FTEs as of
April 7, 2009. By this summer, we plan to have a new group of ARRA-focused
auditors and investigators on board to supplement our existing staff. We plan to hire
approximately 17 FTEs to reach our base and 37 new FTEs to perform recovery work.

We have issued numerous vacancy announcements at all levels and have begun
selecting qualified applicants. Further, the Office of Personnel Management gave us
authority to utilize “rehired annuitants” to supplement our staff. The ability to
expeditiously hire high-caliber staff is critical so we can deploy them to track the
influx of ARRA funds and deal with the increased workload of hotline complaints
that are likely to occur as ARRA projects begin construction.

We are also conducting systematic outreach with congressional and other
stakeholders, including staff of our authorization and appropriations committees in the
House and Senate and major transportation associations. For example, earlier this
month we met with various congressional staff directors and industry representatives
to listen to their concerns about ARRA’s implementation.

Moreover, in response to the new challenges presented by ARRA, our office is
updating its comprehensive strategic plan so that our ARRA audits and investigations
are tied to an overarching strategy. This strategy will recognize the connection of
ARRA to other key transportation issues and reflect the cross-cutting nature of DOT’s
strategic goals, such as reducing congestion and improving safety. To expedite this
planning effort and target resources more effectively going forward, we convened a
daylong session earlier this month with our Senior Executive Service staff and audit
Program Directors.

Finally, we are developing new reporting formats that will allow us to expeditiously
issue the results of our work when we determine that action can be taken in a timely
manner. We are also focused on presenting our ARRA work in a user-friendly,
understandable manner to maximize the impact of our findings and recommendations.

CONCLUSION
DOT will need sustained efforts to ensure that accountability, efficiency, and
effectiveness are maintained in its portion of the recovery program. To that end, we
acknowledge the TIGER team-led efforts that DOT has underway to successfully
implement the ARRA program. We are focused on assisting DOT officials in their
efforts by identifying vulnerabilities and making recommendations for program
improvements. Further, we recognize the importance of collaboration across the
accountability community, which is necessary to best protect taxpayer interests and
promote achievement of ARRA’s goals.



                                                                                    14
It is important that we ensure accountability to help restore Americans’ trust in
Government and to maximize the return on the $48 billion in transportation
investments provided by the recovery program. ARRA presents a unique opportunity
for DOT to make needed or neglected investments in the repair, rehabilitation, and
modernization of the Nation’s aging transportation infrastructure; to fund projects to
reduce congestion; and to improve the overall safety of the transportation system. It
is critical that we do everything possible to maximize this opportunity. We are
committed to doing just that.

That concludes my statement, Madam Chairman. Once again, I would like to thank
the Committee for its tremendous support of our oversight efforts related to ARRA. I
will be happy to answer any questions you or other Members of the Committee may
have.




                                                                                   15
                                  Attachment
                                  Page 1 of 33




 AMERICAN RECOVERY AND
REINVESTMENT ACT OF 2009:
 OVERSIGHT CHALLENGES
FACING THE DEPARTMENT OF
     TRANSPORTATION
   Department of Transportation

   Report Number: MH-2009-046
   Date Issued: March 31, 2009
                                                                                                      Attachment
                                                                                                      Page 2 of 33




           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: American Recovery and Reinvestment                                  Date:    March 31, 2009
           Act of 2009: Oversight Challenges Facing the
           Department of Transportation
           Report Number MH-2009-046

  From:    Calvin L. Scovel III                                                     Reply to
                                                                                    Attn. of:   J-1
           Inspector General

    To:    All Secretarial Officers
           Heads of All Operating Administrations

           On February 17, 2009, the President signed into law the American Recovery and
           Reinvestment Act (ARRA), which designated over $48 billion to the Department
           of Transportation (DOT). 1 This audit report represents the second product in the
           Office of Inspector General’s (OIG) review of DOT’s implementation of ARRA. 2
           The objective of this audit was to highlight key DOT oversight challenges—based
           on prior OIG reports and other agencies’ relevant audit work—and identify actions
           DOT should take now in support of ARRA requirements.

           According to the Secretary of Transportation, ARRA represents “the largest
           investment in America’s roads, bridges, transit lines, and rail systems since the
           creation of the interstate highway system.” Key provisions of ARRA are
           preserving and creating jobs, promoting economic recovery, and investing in
           transportation infrastructure that will provide long-term economic benefits. In
           addition to providing funding for a number of existing DOT programs, ARRA
           directs DOT to create several new programs and establishes tight time frames for
           distributing and expending funds and for reporting results (for example, the
           number of jobs created).

           The vast majority of ARRA funding goes to the Federal Highway Administration
           (FHWA), the Federal Railroad Administration (FRA), and the Federal Transit
           Administration (FTA) for the construction and/or maintenance of highway, road,

           1
               Public Law 111-5, February 17, 2009.
           2
               OIG Testimony CC-2009-045, “Top Management Challenges Facing the Department of Transportation,” March 10,
               2009. OIG reports and testimonies are available on our website: www.oig.dot.gov.
                                                                                Attachment
                                                                                Page 3 of 33

bridge, transit, and rail projects. The remaining ARRA funds are distributed
among the Office of the Secretary of Transportation (OST), the Federal Aviation
Administration (FAA), the Maritime
Administration (MARAD), and OIG.             Table 1. Distribution of ARRA
Table 1 shows the distribution of ARRA               Funds Within DOT
funding within DOT.
                                                                 Stimulus
Both the President and Congress have                     DOT      Funds         Percent of
emphasized the need for accountability,                Component (millions)       Total*
efficiency, and transparency in the            FHWA             $27,500          57.15%
allocation and expenditure of ARRA             FRA                $9,300         19.33%
funds.     Accordingly, the Office of          FTA                $8,400         17.46%
Management and Budget (OMB) has                OST                $1,500          3.12%
called on Federal agencies to: (1) award       FAA                $1,300          2.70%
and distribute funds in a prompt, fair, and
                                               MARAD                $100          0.21%
reasonable manner; (2) ensure the
recipients and uses of the funds are           OIG                   $20          0.04%
transparent to the public, and the resulting   Total            $48,120        100.00%
benefits are reported clearly, accurately,   Source: ARRA.
                                             * Percents do not add up due to rounding.
and promptly; (3) ensure funds are used
for authorized purposes and to mitigate instances of fraud, waste, and abuse;
(4) avoid unnecessary project delays and cost overruns; and (5) achieve specific
program outcomes and improve results on economic indicators. 3

To achieve these goals, DOT’s leadership has been proactive on several fronts,
including the establishment of the DOT-wide Transportation Investment
Generating Economic Recovery (TIGER) team to coordinate the Department’s
role and ensure accountability. DOT’s Operating Administrations are also
working with senior Department officials in developing methods for tracking and
reporting expenditures, job creation, and results; working with potential grantees
to quickly identify and process proposals; and considering strategies for
strengthening their existing oversight processes. OIG supports DOT in its
oversight initiatives and has developed an audit strategy in response to the new
challenges presented by ARRA.

Exhibit A presents our scope and methodology. We discussed our work and
recommendations with DOT representatives, including the TIGER team, and
appreciate their courtesies and cooperation during this audit. Exhibit B is a list of
the relevant reports and testimonies issued by OIG. Exhibit C provides additional
information on the specific DOT programs that received funding in ARRA and the
statutory deadlines for spending the money.

3
    OMB “Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
    February 18, 2009.
                                                                           Attachment
                                                                           Page 4 of 33

RESULTS: OVERSIGHT CHALLENGES FACING DOT
Based on our analysis of ongoing and prior audit work and observations of DOT’s
efforts to implement ARRA, we see three major oversight challenges facing DOT:
       1. Ensuring that DOT’s grantees properly spend ARRA funds;
       2. Implementing new accountability requirements and programs mandated
          by ARRA; and
       3. Combating fraud, waste, and abuse.

The challenges and 10 focus areas associated with them are shown in table 2.

 Table 2. Major ARRA Challenges and Related Focus Areas for DOT
                 Challenges                                  Focus Areas
1. Ensuring that DOT’s grantees properly   -   Acquire sufficient personnel with relevant
spend ARRA funds                               expertise to oversee grantees.
                                           -   Adhere to existing Federal requirements
                                               for programs funded under ARRA.
                                           -   Evaluate the credibility and completeness
                                               of cost and schedule estimates.
                                           -   Oversee grantees’ contracting management
                                               activities and ensure selection of
                                               appropriate contract types.
                                           -   Address internal control weaknesses and
                                               identify unused funds for use elsewhere.
2. Implementing new accountability         -   Implement new ARRA tracking and
requirements and programs mandated by          reporting requirements that are designed to
ARRA                                           promote accountability and transparency.
                                           -   Develop comprehensive plans and sound
                                               criteria for the new discretionary grant and
                                               passenger rail programs within statutory
                                               deadlines.
                                           -   Develop appropriate oversight strategies
                                               for the new discretionary grant and
                                               passenger rail programs.
3. Combating fraud, waste, and abuse       -   Enhance understanding among DOT staff,
                                               grantees, and their contractors on how to
                                               recognize, prevent, and report potential
                                               fraud to the appropriate authorities.
                                           -   Take timely and effective action to suspend
                                               and/or debar individuals or firms that have
                                               defrauded the Department so they do not
                                               receive Federal contracts in the future.
                                                                       Attachment
                                                                       Page 5 of 33

ENSURING THAT DOT’S GRANTEES PROPERLY SPEND ARRA
FUNDS
The large amounts of funding that DOT is responsible for under ARRA and the
accelerated time frames to use those funds will place great demands on DOT’s
workforce, oversight processes, business practices, and financial management
systems. Accordingly, to meet these demands and provide effective oversight,
DOT will need to:

       • acquire sufficient personnel with relevant expertise to oversee grantees,
       • adhere to existing Federal requirements for programs funded under
         ARRA,
       • evaluate the credibility and completeness of cost and schedule
         estimates,
       • oversee grantees’ contracting management activities and ensure
         selection of appropriate contract types, and
       • address internal control weaknesses and identify unused funds for use
         on other eligible projects.

Acquire Sufficient Staff With Relevant Expertise
DOT must ensure that it has sufficient personnel with relevant expertise to meet
the increased workload, new requirements, and accelerated time frames associated
with recovery spending. A sufficient and trained workforce is key to holding
grantees accountable for contract actions and realistic cost and schedule estimates,
and ensuring that state or local recipients can effectively manage their projects and
the risks associated with the recovery program.

DOT officials expressed concerns about their ability to provide sufficient
oversight with limited time and staff, particularly in regional and division offices,
and noted actions under consideration. Some Operating Administrations are
considering detailing staff from each of their Headquarters to their regional and
division offices and rehiring retired Federal employees (often referred to as
“rehired annuitants”) on a temporary basis. DOT officials informed us that, earlier
this month, the Office of Personnel Management granted DOT direct-hire
authority and delegated to it dual compensation waiver authority. These hiring
flexibilities should help enable DOT meet critical hiring needs. The key will be to
utilize these flexibilities effectively to augment other staffing actions.

These temporary efforts are laudable; but the difficult tasks will be to implement
them promptly, evaluate their workability, and make any course corrections, as
needed. Additional options may also merit consideration in addressing the
                                                                                          Attachment
                                                                                          Page 6 of 33

increased workload. One is to use private consultants to supplement—but not
substitute for—DOT staff, such as FTA’s use of project management oversight
contractors (PMOCs). 4 As we previously reported, the PMOC approach can
provide early warnings of cost, schedule, and quality problems, but does not
preclude them. Follow-through by DOT staff is critical to the success of this
approach. For example, on FTA’s Lower Manhattan Recovery Projects (totaling
$4.55 billion), the PMOCs identified key risks early on that were not sufficiently
addressed, such as the insufficient management and technical capabilities
exhibited by some grantees.5 These issues contributed to significant cost increases
and schedule delays and an inability to stay within an overall Federal funding cap.
In the past year, FTA has enhanced its oversight of these projects and is working
with grantees to address issues the PMOCs identified.

However, a key requirement for evaluating staffing shortfalls for ARRA work and
other DOT demands is good information on DOT’s workforce, including up-to-
date plans. Our work has shown that more needs to be done in certain key areas.
For example, DOT continues to face challenges in developing a comprehensive
strategic plan for its entire acquisition workforce that oversees the direct award
and administration of DOT contracts. DOT officials said they are having
difficulty determining the total number of key acquisition workforce positions,
such as contracting officer technical representatives and program managers. This
is a result of the lack of critical information on these positions, including
workforce size, knowledge and skills requirements, and attrition and retirement
rates. Without such data, DOT is unable to identify employment trends and assess
the current condition of the acquisition workforce, which are needed to determine
the ideal composition, skill mix, and talent for its future.

In February 2009, DOT officials compiled a succession plan for the acquisition
workforce. It includes a competency assessment for the entire acquisition
workforce, some retirement information, hiring plans, and training strategies for
contracting positions. As the Operating Administrations design strategies to
address weaknesses identified in the plan, they will need to consider the impact of
ARRA on the acquisition workforce. We plan to evaluate the adequacy of DOT’s
workforce as part of our future audit work evaluating the effectiveness of the
Department’s oversight of ARRA projects.




4
    A project management oversight contractor is retained by FTA to evaluate a grantee’s technical capacity
    to build, operate, and maintain a project and to monitor the grantee’s implementation of a project. This
    is done in accordance with FTA guidance.
5
    OIG Report Number MH-2008-086, “Baseline Report on the Lower Manhattan Recovery Projects,”
    September 26, 2008.
                                                                     Attachment
                                                                     Page 7 of 33

Adhere to Existing Federal Requirements for Programs Funded Under
ARRA
DOT must avoid waiving or expediting existing requirements for the programs
funded in ARRA and make sure that any required programmatic, financial, or
engineering reviews are conducted in a rigorous and systematic manner. We have
learned that when DOT’s processes and procedures are short cut or bypassed, the
potential for inefficient spending increases. Accordingly, DOT needs to carefully
follow requirements in these areas by: (1) ensuring that planning requirements are
met, including proper accounting for projects in a Statewide Transportation
Improvement Program (STIP) and (2) following policies and procedures for the
grant programs that received ARRA funding. These requirements exist to increase
the likelihood that funds will be effectively planned and spent. As Secretary
LaHood stated, DOT has committed to do things “by the book” by following
established policies and procedures.


Follow Project Planning Requirements
The Federal Government has a number of key planning requirements, including
reviews related to environmental, financial, and project management issues, which
must be met before projects can receive Federal funding. DOT will need to ensure
that any ARRA projects meet them, even though the Department will be under
great pressure to get shovels in the ground. Particular attention must be focused
on reviews of required STIPs for highway and transit projects, as well as Airport
Improvement Program (AIP) grant applications for aviation projects.

Review of STIPs for highway and transit projects. STIPs lay out how states
intend to use taxpayers’ money to meet their transportation needs, and they are to
identify which projects will be funded and the cost and funding sources for those
projects. DOT requires that STIPs be fiscally realistic and present truthful and
credible information. Having a realistic STIP is critical for transportation and
budget planning purposes.

DOT must make sure that FHWA and FTA ARRA-funded projects are included in
a STIP; and that they review each state’s STIP for fiscal constraint and compliance
with statutory requirements, particularly in light of the deteriorating budget
situation that state and local governments are experiencing. Further, states must
also ensure that the STIPs they submit to DOT have all the required assurances
and certifications at the state level. Going forward, we will be assessing states’
compliance with the STIP process as part of our planned audit work.

AIP grant planning. FAA must ensure that all ARRA-funded aviation
construction projects go through its AIP planning and programming processes. By
doing so, FAA and its airport sponsors will be assured that only shovel-ready,
                                                                                Attachment
                                                                                Page 8 of 33

high-priority construction projects are approved for ARRA funding. FAA’s
processes include developing airport layout plans, assessing environmental
impacts, completing preliminary designs, and determining project costs based on
bids. Because these processes normally take several years to complete, FAA plans
to fund only those projects that have already been through its grant review process
and are ready to move to the construction phase. FAA must follow through on
these plans and not circumvent any established AIP procedures as it evaluates AIP
grant applications.


Follow Grant Policies and Procedures
Once projects are approved, DOT’s Operating Administrations must ensure
adherence to existing oversight requirements related to the grant programs
receiving ARRA funds, including FHWA’s Surface Transportation Program,
FTA’s Urbanized Area Formula Program, and FAA’s AIP. Failure to follow
existing Federal requirements could result in inefficient expenditure of scarce tax
payer dollars.

FAA’s experience in awarding airport grants in the aftermath of Hurricanes
Katrina and Rita is an example of what can happen when speed trumps sound
business practices. FAA expedited the award of 10 airport grants totaling
$40.5 million under AIP, without completing steps in its grant award process.
After bypassing controls to prevent duplicate payments and basing grant awards
on bids rather than estimates, FAA issued grants for work that was later
determined to be unneeded. Ultimately, FAA withdrew 7 of the 10 grants until
oversight was improved and bids for hurricane-related projects were obtained.6
Having learned important lessons through these hurricane relief efforts, FAA
officials told us they intend to follow all AIP grant policies and procedures during
implementation of ARRA. Additionally, FAA issued new ARRA grant guidance
this month. In our discussions with FHWA and FTA, they also assured us they
will not undermine any established policies and procedures in the rush to approve
ARRA-funded projects.


Evaluate the Credibility and Completeness of Cost and Schedule
Estimates
DOT must target its oversight efforts at ensuring that cost and schedule estimates
are examined and deemed credible and complete, particularly the risks posed by
larger and more complicated projects. Cost estimates that are too high could lead
to excess and idle funds, while estimates that are too low could force grantees to

6
    OIG Report Number AV-2007-014, “Oversight of Airport Improvement Program Hurricane Grants,”
    December 13, 2006.
                                                                                              Attachment
                                                                                              Page 9 of 33

find other sources of funding to cover overruns. Having realistic estimates and
staying on-time and on-budget are even more critical now, considering the tight
fiscal environment in which state and local governments are operating.

Our prior audit work points to the need for an early and more rigorous evaluation
of cost and schedule estimates for ARRA projects. We have seen projects where
earlier and more rigorous evaluation of estimates would have been beneficial. For
example, in 2008, after assessing cost estimates for the Dulles Corridor Metrorail
Project, 7 two independent consultants for FTA determined that the project sponsor
underestimated the impact of schedule delays. These delays, in turn, increased the
overall cost estimate for this project to almost $3 billion—doubling an earlier
estimate. Earlier scrutiny of the impact of schedule delays on cost estimates might
have helped FTA avoid this situation and provide decisionmakers with more
realistic information up front.

Oversee Grantees’ Contracting Management Activities
To manage its portion of the economic recovery program, DOT and its grantees
must ensure that effective contracting and financial practices are in place to make
sound decisions under the tight time frames and quick roll out of the program.
Actions needed are: (1) specifying contract requirements early, maximizing
competition, and using appropriate contract types and (2) preventing unallowable
costs, improper payments, and excessive overhead charges during contract
execution.

The magnitude and the accelerated pace for spending ARRA dollars could
exacerbate contract award problems we previously identified, such as use of
inappropriate contract types, inadequate competition, and failure to ensure contract
prices are fair and reasonable. Audits of DOT and state contracts used to respond
to the Hurricane Katrina emergency found instances in which DOT money was
spent inefficiently because grantees used risky contracting methods in spending
Federal funds, such as sole-sourced contracts, which resulted in significantly
higher costs. 8 For example, we found a state Department of Transportation
awarded two sole-sourced contracts without assurance of fair and reasonable
prices, which resulted in the state paying about $1.7 million more than necessary
for bridge repairs.

DOT is taking steps to avoid a repeat of the problems it experienced in response to
Hurricane Katrina. For example, it is stepping up its oversight of ARRA funding
through outreach to grantees and posting frequently asked questions on the

7
    OIG Report Number MH-2007-060, “Baseline Report on Major Project Monitoring of the Dulles Corridor Metrorail
    Project,” July 27, 2007.
8
    OIG Report Number MH-2006-065, “Audit of the Mississippi Department of Transportation’s Award of Selected
    Hurricane Katrina Emergency Repair Contracts,” September 6, 2006.
                                                                                                   Attachment
                                                                                                  Page 10 of 33

websites of DOT’s Operating Administrations; and it has implemented a “help
desk” email site. Further, DOT’s Office of the Senior Procurement Executive
(OSPE) revised its Financial Assistance Guidance Manual in March 2009 to
reflect the increased demands posed by ARRA. The manual sets a standardized
process for grant processing and management. It will be important to widely
disseminate this information down to the local grantee level, particularly to those
grantees that have little or no experience in managing Federal dollars.


Address Internal Control Weaknesses and Identify Unused Funds for
Use on Other Eligible Projects
DOT needs to identify and mitigate any internal control 9 weaknesses to be assured
that ARRA funding is spent in an efficient and effective manner, and in
accordance with Federal laws and regulations. OMB is requiring agencies to
immediately assess risk and develop mitigation strategies to prevent internal
control weaknesses in areas such as ensuring the prompt award and expenditure of
ARRA dollars and minimizing improper payments. Our prior audit work shows
that DOT has experienced problems in some of these areas. To comply with
OMB’s requirements and provide effective oversight of ARRA funding, DOT
must: ensure that its risk mitigation plans address internal control weaknesses and
actions to prevent them from recurring; identify unused funds promptly and take
timely action to free them up for use on other projects; and detect and prevent
improper payments.


Develop Risk Mitigation Plans That Address Internal Control Weaknesses
DOT and its Operating Administrations need to work with their grantees to correct
internal control weaknesses that auditors have identified during DOT’s financial
statement audits and Single Audit Act reviews. 10 It is critical that DOT use the
OMB-required risk assessment process as a way to identify strategies to prevent
similar issues with ARRA funds. Taking action to prevent internal control lapses
is particularly important for FHWA, which received more than half of DOT’s total
funding allocation under ARRA. DOT’s Single Audit Act reviews related to
FHWA grantees identified internal control weaknesses and instances of
noncompliance with grant requirements at state DOTs across the country. For
example, in the past year and a half, auditors issued qualified opinions on eight
state DOTs’ administration of Federal-aid grants because of problems identified
during the Single Audit Act reviews.

9
     Internal controls provide reasonable assurance of the effectiveness and efficiency of an agency’s use of financial
     resources, the reliability of financial reporting, and compliance with applicable laws and regulations.
10
     The Single Audit Act requires state or local grantees to maintain a system of internal control over all Federal
     programs in order to demonstrate compliance with pertinent laws and regulations. Single Audit Act reviews are
     conducted to determine whether grantees are complying with these requirements.
                                                                                          Attachment
                                                                                         Page 11 of 33

DOT has been identifying internal control risks and developing a consistent risk
management tool to ensure the successful implementation of ARRA. For
example, FHWA Headquarters recently issued a memorandum directing its 52
Division Offices to implement a risk management program to identify primary
risks in successfully implementing ARRA. First, FHWA directed its Division
Offices to assess risks, prioritize them, and report the assessments to Headquarters.
Second, the memorandum directed Division Offices to develop a risk management
plan that involves “visual monitoring” of items, such as state financial transactions
and consultant procurement and administration, enhanced financial oversight of
states, and communications and outreach to assist states in mitigating risks. These
are good first steps, but FHWA needs to make sure these efforts are conducted
consistently and effectively across its 52 Division Offices, which are located in
every state, the District of Columbia, and Puerto Rico.

Providing consistent oversight across field locations has presented a challenge in
the past, particularly at FHWA. Our prior audit work indicates that FHWA had
not always ensured consistency in oversight activities among its Division Offices.
For example, our 2009 report on FHWA’s oversight of the National Bridge
Inspection Program showed that bridge engineers in the 10 states we reviewed did
not perform Headquarters-recommended risk assessments of bridge conditions in a
consistent or systematic manner. 11 This inhibited FHWA’s ability to assess
bridge-related risks nationwide, prioritize them, and target those higher priority
risks for remediation in coordination with states.


Identify Unused Funds Promptly
To maximize the impact of ARRA funds on the economy, DOT must improve its
controls for identifying unused funds in its financial management systems and
taking appropriate action to release them on completed, canceled, and reduced-
scope projects. Without sufficient controls, it is possible for unused funds to
remain idle for long periods of time. This could prevent other worthy projects
from receiving Federal funds and potentially undermine ARRA’s ability to
stimulate the U.S. economy by spurring construction activity across the country.

In particular, DOT needs to ensure that it is addressing control weaknesses we
have identified in the past regarding unused funds. For example, FHWA
implemented the Financial Integrity Review and Evaluation (FIRE) in fiscal year
(FY) 2005 to improve oversight of Federal highway funds, including its ability to
identify idle funds that could be freed up for use elsewhere. FIRE has improved
FHWA’s stewardship of Federal funds, but problems related to idle funds persist.
This is evidenced by the fact that, in FY 2008, auditors again found idle funds at
11
     OIG Report Number MH-2009-013, “National Bridge Inspection Program: Assessment of FHWA’s Implementation
     of Data-Driven, Risk-Based Oversight,” January 12, 2009.
                                                                                          Attachment
                                                                                         Page 12 of 33

FHWA estimated at about $300 million. Similarly, we found that in 2007 FAA
allowed numerous AIP grants to remain inactive and obligations to remain on
closed grants, both for excessive periods of time. 12 These examples indicate that
further management attention is needed to make sure that DOT’s controls are
effective at identifying unused funds that could be freed up for use on other
eligible projects.


Detect and Prevent Improper Payments
In its guidance on implementing ARRA, OMB emphasized the need for Federal
agencies, including DOT, to prevent improper payments. Improper payments are
those made to an ineligible recipient or for an ineligible service, duplicate
payments, and payments for services not received. Avoiding improper payments
presents a challenge to DOT.

For example, during our review of controls over DOT’s contract for Hurricane
Katrina emergency disaster relief transportation, we found that an FAA
contracting officer routinely authorized invoices for payment without any
documentation from the contractor showing that the services had actually been
provided. 13 In one instance, this lack of controls resulted in a $33 million
overpayment to the contractor for emergency bus transportation services and
chartered aircraft services, which was later recovered.

At FHWA, we have identified oversight weaknesses that led to improper
payments, which must be avoided in the ARRA program. For example, in a recent
audit of deficiencies in FHWA’s oversight of design and engineering (D&E)
firms’ indirect costs claimed on Federal–aid grants, we reported that Federal funds
were used to reimburse unallowable costs totaling nearly $16 million. 14 This
occurred in part due to ineffective oversight by FHWA, state departments of
transportation, and the certified public accounting firms hired by the D&E firms.


IMPLEMENTING NEW ACCOUNTABILITY REQUIREMENTS AND
PROGRAMS MANDATED BY ARRA
In addition to increasing the funding levels of existing programs, ARRA placed
additional challenges on DOT by (1) mandating several new reporting
requirements that are designed to enhance accountability and transparency and
12
     OIG Report Number AV-2007-073, “FAA’s Oversight of Inactive Airport Improvement Program Grant
     Obligations,” September 13, 2007.
13
     OIG Report Number AV-2006-032, “Report on Internal Controls Over the Emergency Disaster Relief Services
     Contract,” January 20, 2006.
14
     OIG Report Number ZA-2009-033, “Oversight of Design and Engineering Firms’ Indirect Costs Claimed on
     Federal-Aid Grants,” February 5, 2009.
                                                                                                Attachment
                                                                                               Page 13 of 33

(2) creating two new large programs that provide for $1.5 billion in supplementary
discretionary grants to improve the Nation’s transportation infrastructure and
$8 billion in grants for high-speed rail corridors and intercity passenger rail
service. 15 To meet these new demands, DOT will need to:

           • implement new ARRA tracking and reporting requirements that are
             designed to promote accountability and transparency,
           • develop comprehensive plans and sound criteria for the new discretionary
             grant and passenger rail programs created by ARRA, and
           • develop appropriate oversight strategies for the new programs created by
             ARRA by drawing lessons learned from DOT’s Operating
             Administrations.


Implement New Tracking and Reporting Requirements Designed To
Promote Accountability and Transparency
To meet ARRA requirements, DOT must ensure that its financial management
systems are able to track ARRA spending and produce reliable information to
report on results in a meaningful way. These new requirements are spelled out in
OMB’s February 2009 implementation guidance. To carry out these requirements,
DOT must ensure that its financial management systems are able to clearly and
reliably track recovery funds separately from other program funds. Beginning in
February 2009, OMB directed DOT and other agencies to distinguish ARRA
funds from non-ARRA funds in all agency financial systems, business systems,
and reporting systems. Further, OMB’s guidance requires agencies to submit
regular reports and the information to generate these reports will come largely
from DOT’s financial management systems. We met with officials in DOT’s
Operating Administrations to discuss these issues and they informed us they have
been working to modify their financial management systems to meet the new
ARRA-related requirements. The key will be following through with these plans
and making any needed adjustments to DOT’s financial management systems as
ARRA is implemented.

DOT will need to stay focused on ensuring that its financial management systems
are programmed to enable officials to meet ARRA requirements related to the
tracking of funds. It will also need to report on the impact of the ARRA
investment promptly (such as the number of jobs created) and provide meaningful
information in these required reports. For example, beginning on May 8, 2009,
current OMB guidance would require DOT to provide monthly financial reports
citing obligations, expenditures, and other financial data by Treasury Account,
15
     ARRA stipulates that the discretionary grant program can be used for a variety of projects, including highway,
     bridge, public transportation, passenger and freight rail, or port infrastructure projects.
                                                                                                  Attachment
                                                                                                 Page 14 of 33

vendor, and award number, and information on allocations of mandatory and
entitlement programs by state or other appropriate geographical unit.

DOT also needs to aggressively enforce the new reporting requirements and
ensure that grantees are reporting accurate and complete information. Further,
DOT would face an even greater challenge if OMB decides to expand current
contractor reporting requirements, which is under consideration.

Obtaining accurate information from DOT grantees has been an issue in the safety
arena. For example, we previously reported on inaccuracies in FRA’s national
grade crossing inventory database 16 and significant weaknesses in the data
reported by states and motor carriers to the Motor Carrier Safety Status
Measurement System. 17 Some ARRA information will be available publicly on
www.recovery.gov 18 and, therefore, must meet DOT and OMB data quality
requirements. This underscores the need to make sure DOT’s financial systems
are reporting reliable and complete information. Actions taken in the past to
promote complete state reporting of data in the safety arena have included public
disclosure of states with reporting problems by means of a data quality map, and
individual state reviews to assess data quality issues. 19

Our prior audit work highlights the need for DOT to focus attention on meeting
the new tracking and reporting requirements. In the past, DOT has not always
been able to use its financial management systems to ensure accountability for
Federal dollars or report on results. For example, in the wake of the 2007 collapse
of the I-35W bridge in Minnesota, we testified that FHWA must improve
accountability by enhancing its ability to track states’ use of Highway Bridge
Program funding.20 FHWA was unable to determine how much of this funding
was actually spent on structurally deficient bridges, because its financial
management system did not differentiate between spending on structurally
deficient bridges and other bridge-related expenditures. This inhibited FHWA’s
ability to assess the impact of Federal dollars on bridge conditions.




16
     OIG Report Number MH-2004-065, “Audit of the Highway Rail-Grade Crossing Safety Program,” June 16, 2004.
17
     OIG Report Number MH-2004-034, “Improvements Needed in the Motor Carrier Safety Status Measurement
     System,” February 13, 2004
18
     The Administration created a website, www.recovery.gov, to provide information to the public on the planning and
     implementation of ARRA.
19
     OIG Correspondence Control No. 2006-041, Correspondence to Representative Petri Regarding SafeStat Data
     Quality, May 7, 2007.
20
     OIG Testimony CC-2007-095, “Federal Highway Administration’s Oversight of Structurally Deficient Bridges,”
     September 5, 2007.
                                                                     Attachment
                                                                    Page 15 of 33

Develop Comprehensive Plans and Sound Criteria for OST’s
Discretionary Grant Program and FRA’s Passenger Rail Program
To design these new programs, DOT will need to accomplish a variety of tasks in
a short time. First, it must develop a comprehensive plan for each program,
including goals and objectives, to ensure that the capital improvements are
integrated into a national system. Second, it must develop criteria and a
transparent process for selecting projects within the time frames Congress
specified. Third, it must issue clear guidance for program implementation.

DOT is planning for these programs, but meeting statutory deadlines will be
difficult due to the number of tasks that must be completed in short time frames.
Although DOT does not face the same deadlines for spending the money that
ARRA mandated for existing programs, it is still required to quickly produce
planning documentation and guidance. ARRA directs OST to publish criteria for
its grant program within 90 days of ARRA enactment, accept applications for
grants within 180 days after the criteria are published, and announce all projects
selected within 1 year of ARRA enactment. Further, ARRA requires FRA to
produce a strategic plan for the passenger rail program within 60 days of ARRA
enactment and interim implementation guidance to applicants within 120 days.


OST’s New Discretionary Grant Program
To meet these deadlines, the Secretary established a working group within OST to
develop criteria for the discretionary grant program and determine the best
administrative structure. OST also has a task force providing advice, consisting of
staff from the Operating Administrations. According to DOT officials, a central
issue for the group is determining the most appropriate place to administer the
grants—within OST or the Operating Administration that would normally be
responsible for a particular type of project. For example, OST could delegate
administrative responsibility for a bridge replacement project to FHWA. If the
Secretary decides to delegate authority over projects to the Operating
Administrations, the Department would need to decide how this delegation of
authority would work within the established goals and requirements of ARRA.


FRA’s New Passenger Rail Program
DOT has not previously implemented the large-scale high-speed passenger rail
program called for in the ARRA. It lacks recent experience overseeing the design
and construction of a new high-speed rail system—in particular a new, stand-alone
high-speed rail system. FRA has allocated staff to plan the high-speed rail and
intercity rail service program, determine how to allocate the funds among the three
                                                                                                 Attachment
                                                                                                Page 16 of 33

eligible purposes, 21 and develop program guidance within the statutory time
frames. Because FRA is a small agency that had few grant programs before
ARRA was passed, it is critical for FRA staff to leverage the in-house expertise
throughout DOT and determine what additional resources it may need. According
to FRA officials, they have consulted with other Operating Administrations for
advice and are considering a variety of options to overcome staffing shortfalls and
insufficient expertise, such as borrowing staff from FTA or FHWA and hiring
consultants.
To design and implement this program, FRA will need to develop strategies to
address several tough issues prior to implementation. Those key issues include:

           • Ensuring that grantees obtain enforceable and meaningful capital
             investment agreements with private freight railroads so that users of
             intercity passenger rail receive benefits from these investments.
           • Establishing sufficient controls to be assured that Federal investments do
             not simply supplant investments the freight railroads already planned to
             undertake on their rail lines.
           • Integrating the capital improvements and associated service
             enhancements into a national intercity rail system that is tied to an overall
             strategic plan.
           • Acquiring the financial and economic modeling expertise needed to
             evaluate a project’s financing plans and revenue and ridership projections.
             This is important because most grantees will likely finance their projects
             through a mix of self-generated revenues (such as through the farebox),
             and Federal, state, and private investments. Equally important is
             conducting appropriate analysis of the viability of a high-speed rail
             project’s long-term operating plan to ensure adequate resources are
             identified up-front that would allow these systems to continue operating
             over the long run.

Develop Appropriate Oversight Strategies for New Programs by
Drawing Lessons From DOT’s Operating Administrations
Not all of the challenges facing FRA and OST are unique. Like the other DOT
Operating Administrations receiving ARRA funds, they will need to eventually
focus on deploying sufficient staff to implement these new programs and provide
oversight to construction projects to ensure they are properly managed by
grantees. However, the oversight challenges facing FRA and OST are exacerbated
by the fact that they have limited experience managing large grant programs.

21
     According to FRA, the $8 billion can be used for three programs: (1) high-speed corridor program, (2) intercity
     passenger rail service grants, and (3) congestion grants.
                                                                                        Attachment
                                                                                       Page 17 of 33

Because both FRA and OST have some time before projects will be under
construction, they need to use this period to evaluate the experiences of other
Operating Administrations for lessons learned on what has worked well in the
past. Then, they will need to decide what type and level of oversight to provide to
projects. For example, FRA and OST could use a data-driven, risk-based
approach to target their oversight efforts at projects that pose the highest risk due
to certain factors, such as those projects with the largest dollar amounts committed
or grantees with less experience in managing Federal grants. Along these lines,
FHWA is implementing a data-driven, risk-based approach to overseeing the
National Bridge Inspection Program, based on our recommendations.

Similarly, FRA and OST could learn from FTA’s experience in standing up its
Lower Manhattan Recovery Projects program. FTA created a separate Recovery
Office to oversee the $4.55 billion Federal investment. 22 This office included
reassigned FTA staff and consultants to help provide oversight and advice on
engineering, financial, environmental, security, and other issues. An approach like
this could enable FRA and OST to quickly implement their new programs.


COMBATING FRAUD, WASTE, AND ABUSE
DOT needs to tailor its counter-fraud efforts to adapt to the increase in capital
funding associated with the recovery program and the expected surge in
construction activity throughout the country. OMB’s ARRA implementation
guidance directs Federal agencies to be aggressive in preventing fraud, waste, and
abuse. Accordingly, DOT will need to:

           • enhance understanding among DOT staff, grantees, and their contractors
             on how to detect, prevent, and report potential fraud and
           • take timely and effective action to suspend and/or debar individuals or
             firms that have defrauded DOT so they do not receive future Federal
             contracts.

Enhance Understanding Among DOT Staff, Grantees, and Their
Contractors on How To Detect, Prevent, and Report Potential Fraud

DOT must target its outreach efforts at deterring fraud schemes that have occurred
on past DOT projects and could occur on projects that receive funding under the
recovery program. They include false claims for materials and labor, bribes
related to contracts for materials or labor, product substitution, and disadvantaged
business enterprises fraud. Table 3 on the next page presents a list of common

22
     OIG Testimony CC-2006-056, “Lower Manhattan Reconstruction Lessons Learned from Large Transportation
     Projects,” July 13, 2006.
                                                                            Attachment
                                                                           Page 18 of 33

fraud schemes that must be prevented under ARRA. DOT will need to make sure
that state and local grantees, and their contractors, understand how to detect, deter,
and report these types of transportation-related fraud to the appropriate authorities.

An important way to deter fraud is for DOT staff and grantees to be aware of
certain “red flag” indicators typically associated with fraud schemes. For
example, any mismarking or mislabeling on products and materials might indicate
product substitution fraud. The best way to make individuals aware of these
indicators is to conduct systematic fraud prevention education in the field. A
description of fraud indicators is presented in exhibit D.

  Table 3. Common Fraud Schemes Found on DOT-Funded Projects
              Fraud Scheme                                      Description
Bid Rigging and Collusion                   Contractors misrepresent that they are
                                            competing against each other when they
                                            actually agree to cooperate on the winning bid
                                            to increase job profit.
Materials Overcharging                      A contractor misrepresents how much
                                            construction material was used on a job and is
                                            paid for excess material to increase job profit.
Time Overcharging                           A consultant misrepresents the distribution of
                                            employee labor to charge for more work hours,
                                            or a higher overhead rate to increase profit.
Product Substitution                        A contractor misrepresents the product used in
                                            order to reduce costs for construction materials.
Disadvantaged Business Enterprises Fraud    A contractor misrepresents who performed the
                                            work in order to appear to be in compliance
                                            with contract goals for involvement of
                                            minority/women-owned businesses.
Quality-Control Testing Fraud               A contractor misrepresents the results of
                                            quality control tests to earn contract incentives
                                            falsely or to avoid production shutdown in
                                            order to increase profits or limit costs.
Bribery                                     A contractor compensates a government
                                            official in order to obtain contracts or permit
                                            overcharges.
Kickbacks                                   A contractor or subcontractor misrepresents the
                                            cost of performing work by secretly paying a
                                            fee for being awarded the contract and,
                                            therefore, inflating the cost to the government.
Conflicts of Interest                       A contracting or oversight official has an
                                            undisclosed financial interest in a contractor or
                                            consultant, resulting in improper contract
                                            award or inflated costs.
Source: DOT OIG.
                                                                        Attachment
                                                                       Page 19 of 33

DOT has taken action to strengthen its fraud awareness and outreach efforts to
more aggressively combat fraud, but continued vigilance and follow-through at all
levels of the Department are needed to be assured that ARRA dollars are spent
appropriately. DOT is taking action on fraud prevention in two key areas. First,
DOT and the Operating Administrations receiving ARRA funds will need to
increase outreach efforts to recipients of Federal grants and contracts to ensure
they have meaningful ethics programs and sound internal controls to recognize,
prevent, and report fraud. OIG has been working constructively with DOT
officials to assist them in their counter-fraud outreach efforts. For example, earlier
this month, the Secretary of Transportation and the Inspector General hosted a
webcast to DOT staff that focused on how to prevent fraud, waste, and abuse
involving common fraud schemes. Our special agents have also been and will
continue providing fraud awareness briefings to DOT staff and grantees at the
state and local levels throughout the Nation.

Second, DOT must continue to follow through to fully implement its ethics
program. Last year, we reported that DOT needed to develop and maintain a
robust ethics program to promote integrity across transportation programs. In
response, in June 2008, the Department instituted an enhanced annual ethics
training program for all acquisition and grants management personnel
Department-wide. The implementation of ARRA underscores the need to follow
through and fully implement this important annual training requirement.


Take Timely and Effective Action To Suspend and/or Debar
Individuals or Firms That Have Defrauded DOT so They Do Not
Receive Future Federal Contracts
DOT will need to ensure timely and effective action is taken on suspension and
debarment cases against those individuals or firms that have defrauded the
Department.      Federal regulations prohibit firms and individuals without
satisfactory records of integrity and business ethics from receiving Federal
contracts or assistance agreements. DOT revised its policy in June 2005, in part,
to improve timely decisionmaking of suspension and debarment actions.
However, our ongoing work shows that the Department needs to improve the
policy—and its implementation—to provide for more timely processing and
reporting of suspension and debarment actions.

Our work has shown that the Operating Administrations do not consistently take
suspension and debarment actions in a timely manner, even though the DOT order
requires such decisions be made within 45 days. Taking action to address these
deficiencies is critical as DOT embarks on the implementation of ARRA. For
example, over half of the 45 actions we reviewed (56 percent) were not processed
within the required 45 days.         For 19 of these actions, the Operating
                                                                                    Attachment
                                                                                   Page 20 of 33

Administrations took from 10 days to more than 2 ½ years longer than the 45-day
standard to render final decisions. The remaining six debarment actions we
reviewed are still awaiting a decision from the debarring officials, which currently
takes between 165 and 945 days.

Further, in February 2009, the Government Accountability Office (GAO) testified
that it had confirmed allegations that businesses and individuals suspended or
debarred for egregious offenses were continuing to receive Federal contracts. 23
Our work did not find any DOT contracts or assistance agreements awarded to
suspended or debarred firms or individuals. However, deficiencies in DOT’s
suspension and debarment policy and implementation leave DOT, as well as other
Federal agencies, vulnerable to doing business with fraudulent or unethical firms
or individuals. This risk will increase significantly under the recovery program.


CONCLUSIONS AND RECOMMENDATIONS
The significant increase in funding for transportation projects associated with
ARRA adds new challenges on top of the longstanding ones we have highlighted
in past reports to the Secretary of Transportation and Congress. At the same time,
ARRA presents an opportunity for DOT to make needed or neglected investments
in the repair, rehabilitation, and modernization of our aging transportation
infrastructure; to fund projects to reduce congestion; and to improve the safety of
our Nation’s transportation system.

We recognize the TIGER team-led efforts that the Department has underway to
successfully implement the ARRA program. To assist in these efforts, our report
condensed the challenges into 10 areas where DOT must exhibit sustained and
effective actions and oversight. To that end, our future audit work will use a risk-
based strategy, carried out in coordination with the Government Accountability
Office, to evaluate DOT’s management of the ARRA programs and its oversight
over grantees and contractors receiving recovery funding.

To ensure sufficient consideration of the potential risks discussed in this report, we
recommend that the Secretary of Transportation, through the DOT TIGER team,
develop an oversight implementation plan that outlines the key actions DOT
already has underway or will take to:

          • Acquire sufficient personnel with relevant expertise to oversee grantees;




23
     GAO Testimony GAO-09-419T, “Excluded Parties List System: Suspended and Debarred Businesses and
     Individuals Improperly Receive Federal Funds,” February 26, 2009.
                                                                       Attachment
                                                                      Page 21 of 33

       • Adhere to existing Federal requirements for programs funded under
         ARRA;

       • Evaluate the credibility and completeness of cost and schedule
         estimates;

       • Oversee grantees’ contracting management activities and ensure
         selection of appropriate contract types;

       • Address internal control weaknesses and identify unused funds for use
         on other eligible projects;

       • Implement new ARRA tracking and reporting requirements that are
         designed to promote accountability and transparency;

       • Develop comprehensive plans and sound criteria for the new
         discretionary grant and passenger rail programs created by ARRA;

       • Develop appropriate oversight strategies for the new programs created
         by ARRA by drawing lessons from DOT’s Operating Administrations;

       • Enhance understanding among DOT staff, grantees, and their
         contractors on how to recognize, prevent, and report potential fraud; and

       • Take timely and effective action to suspend and/or debar individuals or
         firms that have defrauded the Department so they do not receive Federal
         contracts in the future.

In addition, the plan should prioritize the greatest risks for DOT and address open
OIG recommendations from prior audit reports that have relevance to the
implementation of ARRA.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of this report to DOT for review and comment on March 18,
2009. DOT provided us its formal comments on March 26, 2009, which we
incorporated into this report, as appropriate. DOT’s complete comments are
included as the appendix to this report. DOT also provided informal technical
clarifications, which we incorporated into this report, as appropriate. In its formal
comments, DOT agreed that vigilant oversight of ARRA funding is critical to the
successful implementation of ARRA and described some of the efforts it has
underway, including the work of the DOT TIGER team. We have included
highlights of DOT’s key efforts in our report and recognize the ongoing
                                                                  Attachment
                                                                 Page 22 of 33

commitment and actions of the Department’s leadership to ensuring the efficient
and effective use of ARRA funds. DOT also concurred with our recommendation
and agreed to provide us with a document outlining actions taken and planned to
address our 10 focus areas.


ACTIONS REQUIRED
We consider DOT’s planned actions to be reasonable. However, in accordance
with Department of Transportation Order 8000.1C, we request that DOT provide
us with the plan called for in our recommendation within 30 days of the date of
this report.

If you have any questions, please call me at (202) 366-1959, or Ann Calvaresi-
Barr, Principal Assistant Inspector General for Auditing and Evaluation at
(202) 366-1427.

                                      #

cc:   Members of the DOT TIGER team
                                                                    Attachment
                                                                   Page 23 of 33



EXHIBIT A. SCOPE AND METHODOLOGY

The objective of this audit was to highlight key ARRA oversight challenges—
based on prior OIG reports and other agencies’ relevant audit work—and identify
actions DOT should take now in support of ARRA requirements. To address our
audit objective, we conducted a comprehensive review of our prior work on
relevant surface transportation and aviation oversight issues, including: work on
major highway and transit projects, Hurricanes Katrina and Rita recovery projects,
and AIP grant oversight projects. We also reviewed the relevant work of other
organizations that have reported on transportation-related oversight issues,
including GAO.

Specifically, we:
        • reviewed the existing body of OIG, GAO, and others’ work (for
          example, Single Audits) to identify past challenges that are likely to
          apply to projects funded under ARRA.
        • held discussions with OST, FHWA, FRA, FTA, FAA, and MARAD
          officials; DOT’s TIGER Team; and representatives of surface
          transportation groups and an aviation constituency group to identify
          what they believe are the oversight challenges to the economic
          stimulus projects and obtain information on DOT’s preliminary efforts
          to prepare for the implementation of ARRA.
        • identified and analyzed internal DOT Operating Administration
          reports to identify challenges previously known within DOT.
        • coordinated with OIG’s investigative offices to identify other work
          that was relevant to oversight challenges facing DOT.

We conducted this performance audit from January through March 2009 in
accordance with Generally Accepted Government Auditing Standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Scope and Methodology
                                                                  Attachment
                                                                 Page 24 of 33



EXHIBIT B. RELEVANT OIG REPORTS AND TESTIMONIES

OIG Testimony Number CC-2009-045, “Top Management Challenges Facing the
Department of Transportation,” March 10, 2009.

OIG Report Number ZA-2009-033, “Oversight of Design and Engineering Firms’
Indirect Costs Claimed on Federal-Aid Grants,” February 5, 2009.

OIG Report Number MH-2009-013, “National Bridge Inspection Program:
Assessment of FHWA’s Implementation of Data–Driven, Risk–Based Oversight,”
January 12, 2009.

OIG Report Number AV-2009-012, “FAA’s Management and Maintenance of Air
Traffic Control Facilities,” December 15, 2008.

OIG Report Number PT-2009-005, “FY 2009 Top Management Challenges,”
November 17, 2008.

OIG Report Number MH-2008-086, “Baseline Report on the Lower Manhattan
Recovery Projects,” September 26, 2008.

OIG Report Number AV-2008-002, “Prioritization of Airport Improvement
Program Funding,” October 26, 2007.

OIG Report Number CR-2007-079, “Growth in Highway Construction and
Maintenance Costs,” September 26, 2007.

OIG Report Number AV-2007-073, “FAA’s Oversight of Inactive Airport
Improvement Program Grant Obligations,” September 13, 2007.

OIG Report Number AV-2007-066, “Review of Congressional Earmarks Within
Department of Transportation Programs,” September 7, 2007.

OIG Testimony Number CC-2007-095, “Federal Highway Administration’s
Oversight of Structurally Deficient Bridges,” September 5, 2007.

OIG Report Number MH-2007-060, “Baseline Report on Major Project
Monitoring of the Dulles Corridor Metrorail Project,” July 27, 2007.

OIG Report Number AV-2007-014, “Oversight of Airport Improvement Program
Hurricane Grants,” December 13, 2006.


Exhibit B. Relevant OIG Reports and Testimonies
                                                                 Attachment
                                                                Page 25 of 33

OIG Report Number MH-2006-065, “Audit of the Mississippi Department of
Transportation’s Award of Selected Hurricane Katrina Emergency Repair
Contracts,” September 6, 2006.

OIG Testimony Number CC-2006-056, Before the Committee on Homeland
Security Subcommittee on Management, Integration, and Oversight, U. S. House
of Representatives, “Lower Manhattan Reconstruction: Lessons Learned from
Large Transportation Projects,” July 13, 2006.

OIG Report Number AV-2006-051, “Internal Controls over Payments for
Emergency Disaster Relief Transportation Services,” June 30, 2006.

OIG Report Number AV-2006-032, “Internal Controls over the Emergency
Disaster Relief Transportation Services Contract,” January 20, 2006.

OIG Report Number FI-2006-011, “Inactive Obligations,” November 14, 2005.

OIG Report Number AV-2005-062, “Safety Oversight of an Air Carrier Industry
in Transition,” June 3, 2005.

OIG Report Number MH-2005-046, “FHWA Needs to Capture Basic Aggregate
Cost and Schedule Data to Improve Its Oversight of Federal-Aid Funds,”
February 15, 2005.

OIG Report Number FI-2005-044, “FAA Inactive Obligations,” January 31, 2005.

OIG Report Number MH-2005-012, “Managing Risk in the Federal-Aid Highway
Program,” November 19, 2004.

OIG Report Number MH-2004-098, “Audit of the Tren Urbano Rail Transit
Project,” September 29, 2004.

OIG Report Number AV-2004-094, “FAA's Administration and Oversight of
Regionally Issued Contracts,” September 28, 2004.

OIG Report Number IN-2003-003, “Audit of the Springfield Interchange Project,”
November 22, 2002.

OIG Report Number FI-2002-092, “Oversight of Cost-Reimbursable Contracts,”
May 8, 2002.




Exhibit B. Relevant OIG Reports and Testimonies
                                                                             Attachment
                                                                            Page 26 of 33



  EXHIBIT C. ARRA ALLOCATION AND EXPENDITURE
  DEADLINES AND REDISTRIBUTION REQUIREMENTS

                                       Available
  Funding Type          Amount                                      Deadlines
                                       Through
 FAA Infrastructure    $200 million    9/30/2010                          NA
    FAA Airport         $1.1 billion   9/30/2010   •    50% of total to be awarded within 120
Improvement Program                                     days of enactment
                                                   • 100% of total within 1 year of enactment
FHWA Infrastructure    $27.5 billion   9/30/2010   • 50% of total to be obligated within 120
                                                        days from the apportionment or forfeit the
                                                        unobligated portion of that 50% to
                                                        redistribution process
                                                   • 100% of remainder within 1 year from the
                                                        apportionment or forfeit 100% of
                                                        unobligated funds to redistribution
                                                        process
     FRA Rail           $8 billion     9/30/2012                          NA
   FRA Amtrak          $1.3 billion    9/30/2010                          NA
 FTA Transit Capital   $6.9 billion    9/30/2010   • 50% of total to be obligated within 180
    Assistance                                          days from the apportionment or forfeit the
                                                        unobligated portion of that 50% to
                                                        redistribution process
                                                   • 100% of remainder within 1 year from the
                                                        apportionment or forfeit 100% of
                                                        unobligated funds to redistribution
                                                        process
 FTA Transit Capital   $750 million    9/30/2010   Priority for projects currently in construction
  Investment Grants                                or projects that can obligate funds within 150
                                                   days of enactment of Act
FTA Fixed Guideway     $750 million    9/30/2010   • 50% of total to be obligated within 180
   Infrastructure                                       days from the apportionment or forfeit the
    Investment                                          unobligated portion of that 50% to
                                                        redistribution process
                                                   • 100% of remainder within 1 year from the
                                                        apportionment or forfeit 100% of
                                                        unobligated funds to redistribution
                                                        process
      MARAD            $100 million    9/30/2010   100% of total to be obligated within 180 days
                                                   of the date of distribution
 OST Discretionary     $1.5 billion    9/30/2011                          NA
      OIG              $20 million     9/30/2013                          NA




  Exhibit C. ARRA Allocation and Expenditure Deadlines and
  Redistribution Requirements
                                                                      Attachment
                                                                     Page 27 of 33

EXHIBIT D. “RED FLAG” INDICATORS FOR COMMON FRAUD
SCHEMES AND HOW TO REPORT SUSPECTED FRAUD

The following are brief descriptions of selected fraud schemes commonly seen on
transportation projects, along with sample “Red Flag” indicators for each scheme.
It is important to note that the presence of one or more indicators does not prove
fraud, nor are the indicators shown all inclusive for each of the schemes described.

Bid Rigging and Collusion
In bid rigging and collusion schemes, contractors misrepresent the competition
against each other when, in fact, they agree to cooperate on the winning bid to
increase job profit. Watch for:

      • Unusual bid patterns: too close, too high, rounded numbers, or identical
        winning margins or percentages.
      • Different contractors making identical errors in contract bids.
      • Bid prices dropping when a new bidder enters the competition.
      • Rotation of winning bidders by job, type of work, or geographic area.
      • Losing bidders hired as subcontractors.
      • Apparent connections between bidders: common addresses, personnel, or
        phone numbers.
      • Losing bidders submitting identical line item bid amounts on nonstandard
        items.
Materials Overcharging
In materials overcharging schemes, a contractor misrepresents how much
construction material was used on the job and is then paid for excess material to
increase job profit. Watch for:

      • Discrepancies between contractor-provided quantity documentation and
        observed data, including yield calculations.
      • Refusal or inability to provide supporting documentation.
      • Contractor consistently loading job materials into equipment away from
        inspector oversight.
      • Truck weight tickets or plant production records with altered or missing
        information.
      • Photocopies of quantity documentation where originals are expected.



Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and
How To Report Suspected Fraud
                                                                       Attachment
                                                                      Page 28 of 33

      • Irregularities in color or content of weight slips or other contractor
        documents used to calculate pay quantities.
Time Overcharging
In a time overcharging scheme, a consultant misrepresents the distribution of
employee labor on jobs in order to charge for more work hours or a higher
overhead rate, to increase profit. Watch for:

      • Unauthorized alterations to time cards and other source records.
      • Billed hours and dollars consistently at or near budgeted amounts.
      • Time cards filled out by supervisors, not by employees.
      • Photocopies of timecards where originals are expected.
      • Inconsistencies between a consultant’s labor distribution records and
        employee timecards.
Product Substitution
In product substitution schemes, a contractor misrepresents the product used in
order to reduce costs for construction materials. Watch for:

      • Any mismarking or mislabeling of products and materials.
      • Contractor restricting or avoiding inspection of goods or service upon
        delivery.
      • Contractor refusing to provide supporting documentation regarding
        production or manufacturing.
      • Photocopies of necessary certification, delivery, and production records
        where originals are expected.
      • Irregularities in signatures, dates, or quantities on delivery documents.
      • High rate of rejections, returns, or failures.
      • Test records reflect no failures or a high failure rate but contract is on
        time and profitable.
      • Unsigned certifications.
Disadvantaged Business Enterprises (DBE) Fraud
In disadvantaged business enterprises schemes, a contractor misrepresents who
performed contract work in order to appear to be in compliance with contract
goals for involvement of minority or women-owned businesses. Watch for:

      • Minority owner lacking background, expertise, or equipment to perform
        subcontract work.


Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and
How To Report Suspected Fraud
                                                                       Attachment
                                                                      Page 29 of 33

       • Employees shuttling back and forth between prime contractor and
         minority-owned business payrolls.
       • Business names on equipment and vehicles covered with paint or
         magnetic signs.
       • Orders and payment for necessary supplies made by individuals not
         employed by minority-owned business.
       • Prime contractor facilitated purchase of minority-owned business.
       • Minority-owned business owner never present at job site.
       • Prime contractor always uses the same minority-owned business.
Quality-Control Testing Fraud
In quality-control testing schemes, a contractor misrepresents the results of quality
control (QC) tests to falsely earn contract incentives or to avoid production
shutdown in order to increase profits or limit costs. Watch for:

       • Contractor employees regularly taking or labeling QC samples away from
         inspector oversight.
       • Contractor insisting on transporting QC samples from the construction
         site to the lab.
       • Contractor not maintaining QC samples for later quality assurance (QA)
         testing.
       • Contractor challenging results, or attempting to intimidate QA inspectors
         who obtain conflicting results.
       • Photocopies of QC test results where originals are expected.
       • Alterations or missing signatures on QC test results.
Bribery
In bribery schemes, a contractor compensates a government official to obtain a
contract or permit contract overcharges. Watch for:

       • Other government inspectors at the job site noticing a pattern of
         preferential contractor treatment.
       • Government official having a lifestyle exceeding his/her salary.
       • Contract change orders lacking sufficient justification.
       • Oversight officials socializing with or having business relationships with
         contractors or their families.



Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and
How To Report Suspected Fraud
                                                                     Attachment
                                                                    Page 30 of 33

Kickbacks
In kickback schemes, a contractor or subcontractor misrepresents the cost of
performing work by secretly paying a fee for being awarded the contract and
therefore inflating job costs to the government. Watch for:

      • Unexplained or unreasonable limitations on the number of potential
        subcontractors contracted for bid or offer.
      • Continuing awards to subcontractors with poor performance records.
      • Non-award of subcontract to lowest bidder.
      • “No-value-added” technical specifications that dictate contract awards to
        particular companies.
Conflicts of Interest
In conflict of interest schemes, a contracting or oversight official has an
undisclosed financial interest in a contractor or consultant, resulting in improper
contract award or inflated costs. Watch for:

      • Unexplained or unusual favoritism shown to a particular contractor or
        consultant.
      • Government official disclosing confidential bid information to a
        contractor or assisting the contractor in preparing the bid.
      • Employee having discussions about employment with a current or
        prospective contractor or consultant.
      • Close socialization with and acceptance of inappropriate gifts, travel, or
        entertainment from a contractor.
      • Vendor or consultant address is incomplete or matching employee’s
        address.
      • Government official leasing or renting equipment to a contractor for
        performing contract work.

Reporting Concerns About Fraud, Waste, or Abuse
OIG maintains a Hotline to report allegations of fraud, waste, and abuse in DOT
programs or operations. Allegations may be reported by DOT employees,
contractors, or the public. The OIG Hotline is available 24 hours a day, 7 days a
week. Individuals who contact the Hotline, via telephone or letter, are not
required to identify themselves. However, persons who report allegations are
encouraged to identify themselves in the event additional questions arise as the
OIG evaluates or pursues their allegations.


Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and
How To Report Suspected Fraud
                                                                   Attachment
                                                                  Page 31 of 33

Report suspicions and allegations of fraud, waste, and abuse to OIG by using one
of the following methods:

      • Online complaint form: www.oig.dot.gov/hotlineform.jsp
      • Telephone: (800) 424-9071
      • Fax: (540) 373-2090
      • E-mail: hotline@oig.dot.gov
      • Mail: DOT Inspector General
          P.O. Box 708
          Fredericksburg, VA 22404-0708




Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and
How To Report Suspected Fraud
                                                                             Attachment
                                                                            Page 32 of 33



APPENDIX. MANAGEMENT COMMENTS



                                                                    1200 New Jersey Ave., S.E.
U.S. Department of                                                  Washington, DC 20590
Transportation
Office of the Secretary
Of Transportation

March 26, 2009


MEMORANDUM TO:                Calvin L. Scovel, III         Joel Szabat
                              Inspector General             Deputy Assistant Secretary
                                                            for Transportation Policy


FROM:                         Lana Hurdle
                              Acting Assistant Secretary
                              for Budget and Programs


                              Linda J. Washington
                              Assistant Secretary for
                              Administration


SUBJECT:                      Departmental Comments on Office of Inspector General (OIG)
                              Draft Report, “American Recovery and Reinvestment Act of
                              2009: Oversight Challenges Facing the Department of
                              Transportation”


The Department of Transportation is committed to performing an outstanding job
implementing the President’s initiative to enhance economic growth through the American
Recovery and Reinvestment Act (ARRA). This commitment to excellence started well in
advance of the Act being signed into law. In January, the Department assembled a leadership
team to provide oversight and serve as a conduit for coordinated and consistent intermodal
implementation of the Act. Under the auspices of this overall Transportation Investment
Generating Economic Recovery (TIGER) Team, the leadership created a dynamic forum for
exchanging information and provided guidance for consistent action throughout the
Department. The benefits of the Department’s fast response in anticipation of ARRA are
already becoming apparent. For example, these efforts positioned DOT to rapidly obtain
direct hire and rehired annuitant authority from OPM. Further, a DOT risk management tool
was developed early to strengthen internal DOT controls and the tool was subsequently
adopted verbatim by OMB for government-wide application. In addition, the TIGER Team is
using leading edge, web-based interactive technology to enable expedited information


Appendix. Management Comments
                                                                               Attachment
                                                                              Page 33 of 33

sharing and data tracking. For example, it developed a web-based interactive master planning
document that tracks progress and assigns responsibility for each of the Department’s major
actions. We also created a web-based capability for tracking action and responsibility on
recommendations made by the OIG and the Government Accountability Office (GAO)
pertaining to ARRA implementation.

In addition to the overall perspective provided by the TIGER Team, it also created the
capabilities to provide detailed guidance and leadership in key areas affecting ARRA
implementation. Individual stewardship groups were established to gather expertise from
across the Department to address common issues and identify coordinated and appropriate
actions. These groups provide leadership in the areas of financial stewardship, data
collection, procurement, and grant management, job measurement, information technology
and communication. Finally, an Accountability Stewardship group has been established with
the participation of TIGER leadership, the OIG and GAO. The purpose of this group is to
achieve the type of transparency envisioned by ARRA, and provide an efficient forum for
sharing information between management and the audit entities.

We appreciate the information provided in the OIG’s draft report and will provide detailed
information to the OIG on actions taken and planned in each of the ten emphasis areas
identified in the report. We intend to provide this information within 30 days of the final
report’s issuance. Finally, please note that we shared with your staff, a separate listing of
technical and specific comments from throughout DOT to correct errors in your report and
for your consideration in finalizing the report. Please contact Martin Gertel at (202) 366-5145
with any questions or if you require further information.




Appendix. Management Comments
